                  CLOSEOUT MEMORANDUM FOR M96090032



 In sipember 1996, OIG received an allegation that an engineer1 for a small company2
 had plagiarized material into his NSF SBIR proposal. OIG b e g h an investigation, in
 which it concluded the subject had committed plagiarism. OIGYsinvestigation report3
 and the NSF Deputy Director's 28 February 2001 letter describing his determination
 constitute the closeout for this case.



cc: Integrity, IG




The engineer is Dr. (redacted}.

The company is {redacted).

The OIG Investigation Report OIG Case M9690032 is dated 7 June 2000.


                                         Page 1 of 1
                     NATIONAL SCIENCE FOUNDATION
                         4201 WILSON BOULEVARD
                        ARLINGTON, VIRGINIA 22230




  OFFICE OF THE                   February 28, 2001
 OEPUW DIRECTOR
                            C

CERTIFIED MAIL --RETURN RECEIPT REOUESTED
Dr.


Re:   Notice of Misconduct in Science Determination
           m:




                                                         -
Dear Dr.
The National Science Foundation (NSF) has concluded that you
committed misconduct in science when you engaged in plagiarism in
two proposals that you submitted to NSF's Small Business
Innovative Research Program (SBIR) in 1996.
Under NSF1s regulations, misconduct" is defined to include
"plagiarism, or other serious deviation from accepted practices
in proposing, carrying out or reporting results from activities
funded by NSF." 45 CFR §689.1(a). The NSF's Office of Inspector

                                                -7'-
General's Report establishes that you copied a flow chart and
associated text from a published article by             and
                                           01.       No. 0' PP-
                                           hout the author's
permission. The flow chart and associated text described the
advantages associated with combining the partial least squares
algorithm with the                model ( " t h e m o d e l " ) .
By submitting proposals to NSF that copy the' work of others
without attribution, you misrepresented that the        model was
first developed by your company,                 , rather than the
original authors. This affected the integrity of the
proposal. In addition, the record shows that you did not provide
adequate attribution to the same authors' published work in three
other SBIR proposals submitted to various Federal agencies.
I have determined that your copying of this reference in two NSF
proposals without providing any attribution to the original
authors' published work constitutes plagiarism and a serious
deviation from accepted practices under NSF's regulations. See
45 CFR §689.1(a). I also conclude that you acted recklessly when
you failed to cite to this fundamental reference in two separate
proposals for NSF funding.
Nevertheless, there are a number of mitigating factors which I
have also considered in determining the appropriate agency
response to your misconduct.. First, you have been candid in your
responses to 01G's investigation'and have assumed full
responsibility for your actions. Second, you have corrected your
behavior and provided appropriate citations to the source
document in subsequent submissions. Third, at the time the
plagiarism occurred, you were a relatively inexperienced
researcher. Fourth, you have indicated that you have not
submitted any proposals for Federal funding since 1997.
In light of these mitigating factors, I conclude that issuance of
this letter of reprimand is the appropriate action and that no
additional actions are necessary to protect the Federal
Government. However, I would like to emphasize that failure to
provide appropriate attribution to another author's work in an
NSF proposal severely undercuts the ability of NSF staff and
reviewers to evaluate the PI'S expertise and familiarity with the
field. It is extremely important not to mislead reviewers into
believing that someone else's work is your own. I am pleased
that you provided proper attribution to source documents in
subsequent submittals and hope that this error in judgment will
be an anomaly in your career. This finding of misconduct in
science does not preclude you from applying for NSF funding in
the future or serving as a merit reviewer.
Under NSF's regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. . 4 5 CFR §689.9(a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 292-8060.

                                  Sincerely,


                                  Joseph Bordogna
                                  Deputy Director

Enclosures ( 2 )
~nvestigativeReport
NSF's misconduct in science regulations
                          Confidential




      Office of Inspector General


                                           1




                          OIG Case ~96090032




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may be
disclosed outside of NSF only by the Inspector General, pursuant to the Freedom
of Information and Privacy Acts, 5 U.S.C. §§ 552,552a.
                        REPORT OF INVESTIGATION INTO ALLEGATIONS OF
                                   MISCONDUCT IN SCIENCE



            The Office of Inspector General (OIG) has concluded that the subject' plagiarized a
    computational model, supporting text, and a figure from the authors' published papeg into two
    Small Business and Innovation Research (SBIR) Phase I proposals submitted to the National
    Science Foundation (NSF). The subject also submitted three other proposals using the model, text,
    and figure in support of different research objectives to three other federal agencies.3 Each proposal
    applies the authors' model and uses supporting text and a figure from their paper. We concluded
    the subject exhibited a pattern of intellectual theft and verbatim plagiarism, and that he was solely
    responsible for it.

            We recommend that NSF frnd that the subject co&ed                    misconduct in science and take
    the following actions as a fmal disposition in this case.

          1. Send the subject a letter of reprimand from the NSF Deputy Director informing him that he
                committed misconduct in science.
       2. For 3 years after the final disposition of this case, when proposals are submitted by the
          subject or on his behalf to NSF, require the subjea to submit certifications to OIG that, to
          the best of his knowledge, they contain notlung that violates NSF's Misconduct in Science
          and Engineering regulation (45 C.FR part 689).
       3. For the same period, require the subjea to ensure that his immediate supervisor submit
             assurances to OIG that, to the best of that person's knowledge, the submitted proposals do
             not contain any plagiarized materials and all source documents are properly cited.4

                                                 OIG's INOUIRY

       OIG received allegations that an NSF proposal (Proposal D) submitted by the subject
contained a model, text, and a figure plagiarized from the paper.' Our comparison of Proposal D
with the paper found a section of the proposal that directly relied on the authors' model?' This

1   ~ r . 4                      wormer research scientist
a     n     d     -                                                                                            Vol.
      NO.       pp.      (1992); hereinafter "the paper."
 3 See Table 1in Appendix 8 for a list of proposals.
   The subject's certifications and his supervisor's assurances should be sent to NSFs Office of Inspector
 General, for retention in the Office's confidential file on this matter.
        .
 5 See Appendix             . . and Appendix
                  1for the paper         ..       8 for a list of vrovosals that the subject submitted to NSF.
                             -
            m



   The concept of the I                                                     model (hereinafter "the model") is
 represented in figure 2 of the pape~-~ccording       to the second author, the model was developed by the
first author as part of his dissertation research and was a new development.
   A                              is a computational model designed to mimic problem-solving patterns in
                    These models have the ability to "learn" from their mistakes and are useful in soIving
problems where the data are thought to be correlated and/or noisy. The authors' model is a union of an
existing numerical method, the PLS (partial least squares as illustrated in fig. 1 of the paper), with
            They call it,            (                      as illustrated in fig. 2 of the paper). By embedding
                    into the framework of the PLS modeling method, the a u t h o r s ' o d e l
incorporates the robustness of the PLS with the flexibility of                              It is this key idea, the
                                                     Page 1
     section contains one figure that appears to have been copied, with slight modification, from the
     paper and srnall amounts of verbatim and paraphrased text. The proposal section describes the
     authors' model and relies on it to promote his research. It does not reference the paper nor
     attribute the model, text, or figure to the authors.

                    With regard to proposal D, an NSF Program .Officer8-stated:

                    It is highly unlikely that a company working specifidly in [this area] would be
                    unaware of [the authors'] work, and yet 'accidentally' reinvent the whole thing, by the
                    same name. There is no citation of [the authors? prior workg

     W1th respect to the figure, he said:

                    The flowchart on page 12 [is] identical to [the authors?, except for an input and
                    output box which were implicit and obvious . . . . [and] a certain aspect of the
                    flowchart . . . APPEARS incongruous and unexplained in [the subject's] proposal,
                    but was developed by [the authors' group] because of a need, which arose in [the
                    authors? application!0

             We. included copies of Proposal D and the paper in which we bracketed the section
     describing the model, highlighted the copied and paraphrased t e a that discusses the essence of the
     model, and boxed the figure common to both documents.

     Subiect's Response to OIG's Inquiry

         In the subject's written response" to our            he said he was "aware of the [authorsl
 work . . . but] the reference to their paper was accident* deleted by mistake and careles~ness."'~
 He said, "I did not use the idea [of the authors] for the proposal."'4 He offered the explanation that
 the proposal was "on a new. .. architecture . . . not on particular                  m~dels."'~As part
 of his work he "wanted to apply and test [the authorsl rn~del."'~    The subject said: "It was my own
 decision to write and submit the proposal on this research. Of course, it was approved by my
 supervisor, and then by the company."" He said the mistake occurred:


            '
                during final editing [when] the reference mark (seed) in, the text was mistakenly
             :"'d&lete$causing
            $- ,;.              .the .deletion
                                     .. . . .
                                               of the whole refkence (in Microroft Word). That y g
     qp                 *'   .
                             W!   .    5   Y..

                -                                  pp      -   -        - -   -                   -




particular union of PLS and                            that utilizes their strengths, that the subject allegedly
misappropriated into his proposals. The subject generally refers to this model as-                 However, he
also described it as a particular form of a
   The Program Officer is within the ~ i v i)s-i if no                                        in the Directorate
for Engineering.
  ~ ~ ~ t k 3.d -i x
10 Id.
"  Appendix 4.
l2 Appendix 5.
13
   Appendix 4 at 1 .
l4   ~d.
     Id.
l6   z'i.
l7   Id. at 2

                                                          Page 2
          did not mark the model as proprietary indicates that the mistake was not intentional




-
          (we did mark the architecture as proprietary). I used their symbols and acronym
          because I meant to cite their papel-. I adjusted their figure 2 because I thought it is a
          little too complex. I do apologize for some improper wordings in the proposal
          te~t.'~"~

  Conclusion of OIGysTnquiq

          The subject's explanation that the missing reference was a "careless mistaken did not
 satisfactorily address the allegations of intelleaual theft and verbatim plagiarism He failed both to
 include a citation in his reference list and to include numerous appropriate citations within the
 proposal body to attribute the model and indicate the copied text and figure.
 the figure, he retained its essential, unique feature-the combination of
           model. His assertion that the action of marking text as
 citation omissions were unintentional is not credible. The two issues are unrelated. We concluded
 there was sufficient substance to these allegations to warrant an investigation

         NSF primarily relies on awardee institutions to prevent and detect rni~condua.~~   It is OIGS
 policy and practice to delay its investigations and to defer investigations to awardees whenever
 practicable. In this particular instance, we believe that the institution, a small company^' served as
 an important resource to our investigation, but had an inherent c o n k of interests because of its
 small size. We did not believe they could conduct an objective investigation because of the close
 relationships of the PI with other company employees and officers, therefore, we did not defer the
 investigation and began our own.



 Company Contact

        We contaaed the company to request their views on the allegation^.'^ The company
president indicated that the subject was responsible for the final content of the proposal including
the accuracy of the citations and reference^.^ The company's Proposal Route Shp form shows that
the subject conduaed a final author review that included verrfying the referencese2'

       Specific& the company president said that the company's policies and practices related to
proposal preparation require that "original authors [are cited.]whenever El's] use outside ideas in



 l8 We note the subject renamed and merged the authors' "x" and "y" input streams into a single "data
 set" stream and he redrew the authors' arrow designating the output as a "residual" data box. One of the
 authors explained that PLS requires separate input streams and that by merging "xu and "y", and
 eliminating the separate analysis of the residual "u" and "t" components, the subject made the model
 unworkable.
l9 Appendix 4 at I.
z0 45 C.F.R. § 689.3(a).
21 See footnote 1.
22 Appendix 6 .
23 Appendix 7.
z4 Appendix 7, attachment A at 2.

                                                Page 3
     their proposals,"25and its review process supports that policy. She addressed the subject's claim that
     the citation was a "careless mistake" during the final editing, saying:

            [Ilnitial proposal texts written by PIS are often too long to fit [he SBIR page
            Imitations. It is therefore possible that some cuts were necessary in [the subject's]
            proposal, which removed the reference to the paper . . . . However, this would have
            to be done by [the subject] himself prior to the submission of his proposal to the
            Publication Center. This is because the feature for automatic deletion process in
            Microsoft Word described by [the subject] (in his letter to [OIGJ is not used at [the
            company's] Publication Center. Once the texts from PIS disks are copied to the
            Publication Center's Computers, only paper versions are delivered for edits or
            corrections. All edits were made by hand so that PIS could clearly see all


 She said "it was [the subjea's] responsibility as a PI to approve the final text of proposal Dl and
 also to make sure that all references were correctly placed in the proposal"27and that he "should
 have included the reference to [the paper] in his proposal."28 She believed the subject's actions were
 more serious than "this [one] proposal indided] because [the company] found ...four other
                                                                                              ''
 proposals written by him as a PI contain a figure identical to Figure 4.3 in ~ r o p o s aDl."
                                                                                           l

         Table 1'' identifies the section in each of the subject's federal proposals that describe the
 authors' model, contain the copied or paraphrased text and figure, and apply the authors' model. It
 also describes the references and citations he included in each proposal and indicates whether the
 authors' information was claimed as propriemy to the company.

         For example, in Proposal D, the subject states: "mhe                      partial least squares
           model, is currently being developed and tested a t e " He addresses the design of the
algorithm and                    in text immediately preceding the bracketed seaion in which he
aiplies the authors' model, supported by their text and figure,-as the basis for his research objective
of training

           A separate act of unaaributed use of the authors' model, text, and figure is evident in
Proposal E. The abstraa states that this "project addresses the problem of on-line machine tool
wear monitoring . . . by developing a novel fast-trainiq                                        .. .
consist[ingI of a ~artialleast squares (PLS)linear transformation and a multi-layer feedforward
                  The optimum combination of the PLS module and relatively smaller nonlinear
learning (backpropagation)                makes the        very efficient. . . ."" In the bracketed
section, the subjea applies the authors' model, supporting text, and the figure to his research


25 Appendix 7 at 3.
26 Id. at 2.
27 Id.
28 Id. at 4.
29 Id.
30 Appendix 8.
3l Appendix 2 at 11.
32 Id. at 10-12.
33 Appendix 9 at 2 (emphasis added).

                                                  Page 4
      objective of using        to monitor tool wear.34Unlike Proposal D, the subject marked ths
      information as proprietary. The key concept of the             model, taken from the paper, is
      illustrated by a sentence in Proposal D and Proposal E that reads: "The                model
      incorporates the              concept into the PLS algorithm (Figure 4)."35

             The research objectives in Proposals A, B, C, D, and Ej6 are unique, but all incorporate the
     authors' model, text, and figure as support for the subjea's research goals. Proposals A, B, C, D,
     and E apply             to specific problems in auto-tuning, tool wear monitoring, CAT imagery
     analysis, surveillance and arms control treaty verification, and cytological diagnosis of cancer,
     respectively.



             NSF defines misconduct in science in relevant part as "[flabriation, falsification, plagiarism,
     or other serious deviation from accepted practices in proposing, carrying out, or reporting results
     from aaivities funded by NSF." (45 C.F.R. 5 689.1(a)(l)). For NSF to make a fmding of
     miscondua in science, a preponderance of the evidence must support the conclusions that the
     subject both committed a bad act and d ~ dso with a level of culpable intent that psdies taking
     action against the subject (e.g., willful, knowing, or gross neghgence). (45 C.F.R § 689.2(b)).

             Our evaluation focuses on the alleged intellectual theft and verbatim plagiarism in Proposils
     D and E because they were submitted to NSF.
 The Act - IntelIectual Theft and Verbatim Pl&arism

         Intellectual Theft - Intellectual theft is understood to be the use of an idea or concept from
 ariother *thout attribution. The subject used the authors' model in two NSF proposals to support
 differentaresearchprojects. Neither Proposal D nor E contains a reference to the authors' paper,
 and their model is not attributed to them. Without such attribution, the subject, as the sole author
 of these proposals, represented the authors' unique model as his own in two different NSF
 proposals.

         We believe the preponderance of the evidence supports the conclusion that the subject used
 the authors' model without atuibution to support the research objeaives in Proposals D and E.

        Verbatim Plagiarism: - When a proposal author copies material he must mark it off from
other text in his proposal so that it is distinguishable by font, indentation, quotation marks or other
means from the material he authored. Providing a citation is essential. A .citation is sufficient if the
proposal author uses the ideas of another but describes them in his own words. In this case, the
subject copied the authors' words and a figure without attribution.

       In each NSF proposal, the subject signed the following certification on page 2 of the NSF
cover page:



34 Id at 10-12.
35 Appendix 2 at 12 and Appendix 9 at 11.
36 Appendix 8.

                                                  Page 5
              I certify to the best of my knowledge that . . . the text and graphics herein as well as
              any accompanying publications or other documents, unless otheryise indicated, are
                    ..
              the original work of the signatories or individuals working under their
              supemsion.. . .

              I understand that the willful provision of false information or concealing a material
              fact in this proposal or any other communication submitted to NSF is a criminal
              offense (U.S. Code, Title 18, Section lOOl)."

     By signing this certification the subject claimed the unattributed work as his own. Based on a
     preponderance of evidence, we concluded that the subject copied text and a figure without proper
     attribution into two NSF proposals.

     State of Mind

          We do not find credible the subject's explanation that the omission of the citations and
 reference was a "careless mistake and by no means intenti~nal."~'The idea for the model should
 have been acknowledged and the copied text and figure should have been cited and set off from the
 surrounding text by quotation marks, indentation or font. Neither of the two exceptions, where the
 words themselves have become part of standard usage or where there is only one way to express a
 concept, apply. The subject could not have copied the text and the figure into either proposal
 without knowing that he was doing so. The material he used was essentid to his proposed research.
 Each time the subjea used the authors' idea for the model, he thought about how to apply their
 model to a new research area. He claimed that designating some material in Proposal D as
 proprietary showed that his citation and reference omissions were unintentional. There is no link
 between his rationale for failing to credit the authors and the proprietary nature of the company's
 efforts. Designating material as proprietary does not relieve the author of obligations to attribute
                                                          1
 copied material and ideas to their original sources.

         The subject suggested that citation and reference omissions were "careless mistakes" made
during final editing?9 However, we found that the company appears to have reasonable safeguards
to prevent such mistakes within its proposal review process. The president stated that "[nk
proposal at [the comvanvl is ever submitted without the approval of the final text by the PIn4' and
that it was ultimately "his responsibility as a PI to approve the final text of proposal Dl and also to
make sure that all the references were correctly placed in the proposal."41 We agree. As
demonstrated by the separate certifications NSF requires of an kStitUti0nal official and a PI, NSF
holds institutional officials responsible for the administration of an award and separately holds a PI
responsible for the proposal's content.

       We do not believe that the subject's omission of the citations and references were careless
mistakes in the fmal editing stages. The subject submitted five proposals over a six-month period.
Chronologicayl, the first proposal'' failed to list the paper in the reference list or cite the paper for

3'   Appendix 2 at 2 and Appendix 9 at 2.
3~7  Appendix 4 at 1.
39   Id   '

40 Appendix     7 at 2 (emphasis in original text).
41 Id
* Appendix 10.
                                                      Page 6
 -   the author's text and figure used in the proposal. The second proposal listed the paper as a
     reference4' but did not cite the text or figure in the proposal.

              The third proposal included a reference, as well as a single sentence w i t h the proposal, that
     attributes the model to the authors (it is preceded by a general sentence attributing various models to
     their authors).44 It did not contain citations for the text or figure. This sentence: "Two new and
     ~owerfulfeature-extraction
                 modelr261
     developed at [the ~ornpanyE"~~
     subject's knowledge that the




-model,
           Neither the
                                                      models, the
                          and the combined partial least squares (PLS) and

                                            model was not his idea.
                                                                                       partial least squares
                                                                                  model, are currently being
                                      This sentence and the general one preceding it clearly indicate the


                                nor the fifth4' (the NSF) proposals include the paper as a reference or
  contain citations for the text or figure. The sentence mentioned above was modified to read, "A
  new and powerful feanueextraction                      model, the                partial least squares
                     is currently being developed and tested at [the company]."48 A simple deletion
                                                                                                                 <




  error in the final editing stages by a mechanism the company states was not in use would neither
  account for the revision of the sentence to discuss only one model nor the missing citations. Even
  if this were plausible, such a mistake would not explain the subject's consistent failure to attn-ute
 the copied text or figure. Our examination of the subject's reference and citation praaices for all
 five proposals show the subject's consistently ignored his responsibility to accurately reference and
 cite the work of others.49 It belies his explanation of a simple deletion error in the final editing
 stages.

             All of the proposals utilize the authors' model but  vary in its application It is hard to
 conceive of a situation where an essential reference, as well as numerous citations within the text and
figure, could be careless omissions. After we contacted him, the subject submitted a proposal using
the authors' model, text, and figure that lists the paper as a reference and contains citations to that
reference in the proposal text." This proposal and his mar+                citation efforts in proposals
submitted prior to the NSF proposals demonstrate that the subjea knew he should correcdy
reference and cite to the authors' work but chose not to do so. Based on a preponderance of
evidence, we conclude that the subject acted knowingly when he copied the model, text, and the
figure from the paper &to two different NSF proposals.




         -     -         -

43 Appendix 11 at 22.
44 Appendix 12. We have previously noted that this sentence is on page 19 of the proposal and the text

 and figure are on pages 20-21.
45 Id. at 19.
46 Appendix 2.                                                                    \

47 Appendix 9.
48 Appendix 2 at 11 and Appendix 9 at 10.
49 Table 1 in Appendix 8.
   Appendix 13. The proposal contains a reference and three citations to the paper within its text. The
figure is separately cited to the reference.
                                                   Page 7
     OIG's Conclusion about the Intellectual Theft and Verbatim Pla~iarism

         PlaGarisrn is to "steal and use (the ideas or writings of another) as one's OW^''^' without
 offset or proper attribution. We conclude that the subject committed plagiarism when he knowingly
 took the authors' model, text, and figure and represented them as his own. He did not reference or
 offset the text or the figure, or otherwise attribute the model to the original authors. The subject
 seriously deviated from the accepted practice, not only in the engineering community, but also in the
 wider scimtific community. A preponderance of the evidence supports the conclusion that the
 subject committed misconduct in science, specifically intellectual theft and verbatim plagiarism.

                                      OIG's RECOMMENDED
                                                    DISPOSITION

         Under NSF's regulation, when deciding what actions are appropriate when misconduct is
 found, NSF officials should consider any evidence of a pattern, the seriousness of the misconduct,
 the intent with which the subject acted, and finally its relevance to other funding requests or awards
 involving the individ~al.~'

 Evidence of a Pattern

        The subject copied text and the figure into five different proposals and used the authors'
model as the basis for proposals on different concepts submitted to four federal agencies. The five
proposals were submitted over a six-month period and requested $424,946. The subject's broader
pattern of erraticalIy includmg references yet omitting citations within his proposals is not consistent
with the explanations he provided us. It is also not consistent with the company's review and
approval system.

        Each time the subjeu used the authors' material, he presented it in support of a new
research project and ignored rules of proper attribution. /A preponderance of evidence supports the
conclusion that the subject exhibits a clear pattern of plagiarism.

Seriousness

         Representing the work of another as one's own without giving appropriate recognition to
the original author is viewed as a serious aa: in the scientific community. Marcel LaFollette
concluded, "[tlhe concept of 'origina1iy'- in the sense of 'newness' or novelty- lies behind the
publishing and scientific communities' strong condemnation of all plagiarism."53 Receiving credit
for new ideas is the currency of academicians. Sigma Xi, the honor society for scientists, views the
failure to provide acknowledgment as dishonest.

          Appropriate recognition means what it says. We are not ordinanly required to
          acknowledge in print the services provided by our typists . . .but those whose careers
          and reputations depend, like our own, on intellectual qualities and scientific ability
          deserve recognition. Not to give it is dishone~t.~'

51  The American Heritage Dictionary of the English Language, New College Edition, Houghton Mifflin
Company, 1976.
52 45 C.F.R. 5 689.2@).
53 Stealing Info Print, Marcel C . LaFollette, University of California Press, 1992, p. 52.
54 Honor in Science, Sigma Xi, The Sdentific Research Society, Incorporated, 1997, p. 16.


                                                 Page 8
             Afcer discovering four additional proposals, the company's president characterized the
     subject's actions as "so fundarnentally stupid that: it is almost difficult to believe that a scientist with
     a Ph.D. could have done it."55

             The subject's actions with regard to the NSF proposals are serious deviations from accepted
     practices that are made more serious by his pattern of i n t e l l e d theft and verbatim plagiarism.

     Recommended NSF Action

             O u r recommended actions take into account the extent of the plagiarism by the subject and
     his level of experience. The subject now works for another small company that can submit
     proposals to NSF. We recommend that NSF's Deputy Director take the following actions to
     protect the federal government's interests:

        1. Send the subject a letter of reprimand informing him -that he was found to have
           committed misconduct in science.''
        2. For 3 years, when proposals are submitted by the subject or on his behalf to NSF,
           require him to submit certifications to OIG that, to the best of his knowledge, the
           proposals contain nothing that violates NSFYsMiscondua in Science and Engineering
           regulation (45 C.F.R. Part 689).*
        3. For the same period, require the subject to enswe that his immediate supervisor submit
           assurances to OIG that, to the best of that person's knowledge, the submitted proposals
           do not contain any plagiarized materials and all source d o m e n t s are properly ~ i t e d ' ~ ' ~ ~

         Since the subject has requested funding from other federal agencies in the past, we
 recommend that NSF coordinate any certification and assurance actions with other federal agencies
 to ensure proper protection of federal interests. Alternatively, the subject should be debarred for a
 period of two years.61 We believe that these actions will adequately protect- NSFYsinterests.




        We provided the subject a copy of the draft Investigation Report and requested that he
provide us with any comments or r e b d to our £indmgs or recommended aaions. In his 30 March
response,62he asked that we consider four points. In points 1, 2, and 3, he states that his use of
                                    was as a general term for                     with particular
characteristics and that these were considered general technologies used by the &rm for which he
worked Our Report did not take issue with the subjea's use of any particular         Instead, our

55   Appendix 7 at 4.
56                                    California.
57 -F
    R
    ..                                    9 689.2(a)(l)(i)).
58 This is a Group I1 action (see 45 CFR § 689.2(a)(2)(ii)).
59 This is a Group 11 action (see 45 CFR 9 689.2(a)(2)(ii)).
* The subject should send the certifications and his supervisor should send the assurances to NSF's Office
of Inspector General, for retention in the Ofice's confidential file on this matter.
  This is a Group ID action (see 45 C.F.R. 8 689.2(a)(3)(ii)).
   Appendix 14.
                                                    Page 9
Repon was concerned with his failure to atsribute th-ode1              to its authors. We concluded
his actions were plagiarism and hence misconduct: in science. In points 3 and 4, the subject
concedes that his use of the authors' work was "wrong and rnislead~ng."~~      We agree. Findy, he
notes in point 4, that he correctly attributed the information in a proposal subrniaed after we had
contacted him in our inquiry. We considered his corrections in developing our recommendations.
The findmgs and recommendations in this Report remain unchanged from the draft provided t o the
subject.




Appendix 14 at 2.
                                           Page 10
